May 9, 2007

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

ALEXANDER E. LAZAROFF
CHIEF POSTAL INSPECTOR

OSCAR S. VILLANUEVA
INSPECTOR IN CHARGE, LOS ANGELES DIVISION

WILLIAM P. ATKINS
INSPECTOR IN CHARGE, SAN FRANCISCO DIVISION

SUBJECT: Audit Report – Postal Service Security Controls and Processes for the
         Pacific Area (Report Number SA-AR-07-003)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
security controls and processes for the Pacific Area (Project Number 06YG034SA001).
Our objective was to determine whether the Postal Service and Postal Inspection
Service had sufficient controls and processes in place to efficiently and effectively
protect employees, customers, the mail, and critical assets of the Postal Service. We
plan to issue subsequent reports on our review of Postal Inspection Service security
operations, including security assessment tools used by the Postal Service and the
Postal Inspection Service.

The Postal Service and the Postal Inspection Service have opportunities to improve
security controls and processes to effectively and efficiently protect employees,
customers, the mail, and critical assets. For example, responsible security personnel
did not always conduct Facility Security Surveys (FSS) accurately or annually as
required. We made two recommendations to Postal Service management to improve
security controls and processes to enhance employee awareness, accountability, and
overall collaboration.

Management generally agreed with recommendations 1 and 2. Management’s
comments and planned corrective actions for recommendation 1 are partially
responsive. We agree the recent consolidation of all security matters under the Postal
Inspection Service and management’s plans to establish training requirements should
help to ensure FSSs are completed accurately. However, we believe management
should also implement additional internal controls, such as an internal review and
approval process, to ensure security personnel complete the FSSs timely. We do not
plan to pursue this recommendation through the formal audit resolution process.
However, we plan to conduct a follow-up review after organizational changes within the
security program are completed. Management’s comments and planned corrective
actions for recommendation 2 are responsive to the recommendation, and should
correct the issue identified in the finding. Management’s comments and our evaluation
of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers both
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Andrea L.
Deadwyler, Director, Inspection Service and Facilities, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Lawrence Katz
    Juliana Nedd
    John Bridges
    Michele L. Culp
    Deborah A. Kendall
Postal Service Security Controls and                                    SA-AR-07-003
 Processes for the Pacific Area


                                       TABLE OF CONTENTS

 Executive Summary                                                                i

 Part I

 Introduction                                                                    1

     Background                                                                  1
     Objective, Scope, and Methodology                                           3
     Prior Audit Coverage                                                        4

 Part II

 Audit Results                                                                   6

     Opportunities Exist to Improve Security Controls and Processes              6
     Facility Security Surveys                                                   6
     Recommendation                                                              9
     Management’s Comments                                                       9
     Evaluation of Management’s Comments                                         9
     Recommendation                                                             10
     Management’s Comments                                                      10
     Evaluation of Management’s Comments                                        10

     Corrective Action on Security Deficiencies and Follow-up Reviews           10

 Appendix A. Pacific Area Facilities                                            12

 Appendix B. Status of Facility Security Surveys                                14

 Appendix C. Management’s Comments                                              16
Postal Service Security Controls and                                                                   SA-AR-07-003
 Processes for the Pacific Area


                                       EXECUTIVE SUMMARY
    Introduction                   This report presents the results of our self-initiated audit of
                                   the Postal Service’s security controls and processes. Our
                                   objective was to determine whether the Postal Service and
                                   Postal Inspection Service had sufficient controls and
                                   processes in place to efficiently and effectively protect
                                   employees, customers, the mail, and critical assets of the
                                   Postal Service. This report addresses our audit results in
                                   the Pacific Area. We also plan to review Postal Inspection
                                   Service security operations, including security assessment
                                   tools used by the Postal Service and Postal Inspection
                                   Service.1

    Results in Brief               Pacific Area and Postal Inspection Service management
                                   have opportunities to improve security controls and
                                   processes to effectively and efficiently protect employees,
                                   customers, the mail, and critical assets. Specifically,
                                   management could strengthen controls over the Facility
                                   Security Survey (FSS) process to enhance employee
                                   awareness, accountability, and overall collaboration. During
                                   our audit we determined the responsible security personnel
                                   did not always complete FSSs accurately or annually2 and
                                   did not take sufficient corrective actions to resolve
                                   deficiencies. This occurred because management did not
                                   establish sufficient internal controls and processes to assist
                                   security personnel with conducting the surveys. As a result,
                                   Pacific Area and Postal Inspection Service management did
                                   not effectively and efficiently identify and mitigate security
                                   risks and assess their security operations, exposing Postal
                                   Service employees, customers, the mail, and other critical
                                   assets to increased risk.




1
  We plan to review the Facility Security Survey, Facility Risk Rating Model, Observation of Mail Conditions, and the
Area Security Assessment Program.
2
  The Postal Service’s Administrative Support Manual 13 (dated July 1999 and updated with Postal Bulletin revisions
through December 22, 2005) requires security control officers or designees to conduct annual FSSs.




                                                          i
Postal Service Security Controls and                                                  SA-AR-07-003
 Processes for the Pacific Area




 Summary of                     We recommended the Vice President, Pacific Area
 Recommendations                Operations, in consultation with the Inspector in Charge,
                                Los Angeles Division, and Inspector in Charge, San
                                Francisco Division:

                                       1. Require area- and district-level personnel to establish
                                          and implement appropriate internal controls, such as
                                          an internal review and approval process, to ensure
                                          that security personnel complete facility security
                                          surveys accurately and in a timely manner.

                                       2. Develop appropriate performance measures for
                                          physical security to assess the achievement of
                                          security goals and incorporate them into performance
                                          plans for area-, district-, and field-level security
                                          personnel.

 Summary of                     Management generally agreed with recommendation 1 and
 Management’s                   2, stating that recent changes in the Postal Inspection
 Comments                       Service’s increased role and subsequent transition of
                                physical security, emergency management, and aviation
                                security will provide the necessary leadership to implement
                                the recommendations.

                                Management also stated FSSs were not correct for a variety
                                of reasons and that interpretation of requirements and lack
                                of training were partially responsible. Currently, security
                                teams from the Los Angeles and San Francisco Divisions
                                have plans to provide FSS and Facility Security Database
                                training to security personnel. Additionally, management
                                stated the National Performance Assessment Core Goal
                                program, a national level program, used combined Area
                                Security Assessment Program (ASAP) scores to assess
                                area performance. Including ASAP reviews in discussions,
                                provides the opportunity to give security performance
                                feedback, focus on improvement needs, and highlight
                                cluster success.

                                In follow-up correspondence, Postal Inspection Service
                                officials stated they would establish requirements for annual
                                training and update applicable policies by September 30,
                                2007. Management also stated they would establish
                                performance measures for security personnel in fiscal year




                                                    ii
Postal Service Security Controls and                                                                SA-AR-07-003
 Processes for the Pacific Area




                                  2008. Management’s comments, in their entirety, are
                                  included in Appendix C of this report.

    Overall Evaluation of         Management’s comments and planned corrective actions
    Management’s                  for recommendation 1 are partially responsive. We agree
    Comments                      the recent consolidation of all security matters under the
                                  Postal Inspection Service as announced by the Chief Postal
                                  Inspector3 and management’s plans to establish training
                                  requirements should help to ensure FSSs are completed
                                  accurately. However, we believe management should also
                                  implement additional internal controls, such as an internal
                                  review and approval process, to ensure security personnel
                                  complete the FSSs timely.

                                  We do not plan to pursue this recommendation through the
                                  formal audit resolution process. However, we plan to
                                  conduct a follow-up review after organizational changes
                                  within the security program are completed.

                                  Management’s comments and planned corrective actions
                                  for recommendation 2 are responsive to the
                                  recommendation, and should correct the issue identified in
                                  the finding.




3
 Chief Postal Inspector memorandum titled “Consolidation of U.S. Postal Service Homeland Security
Responsibilities,” dated March 16, 2007.




                                                       iii
Postal Service Security Controls and                                                             SA-AR-07-003
 Processes for the Pacific Area


                                           INTRODUCTION
    Background                    Postal Service. The U.S. Postal Service, an independent
                                  establishment of the executive branch of the U.S.
                                  government, operates like a business and generates $70
                                  billion in revenue annually.4 Under the Postal
                                  Reorganization Act of 1970, the Postal Service is required
                                  to provide prompt, reliable, and efficient service to patrons
                                  in all areas and to render postal services to all communities.
                                  In fiscal year (FY) 2005, the Postal Service processed and
                                  delivered over 200 billion pieces of mail.

                                  The Postal Service faces a variety of security challenges
                                  that require aggressive investigative and preventive
                                  responses. Its ability to protect employees, customers, and
                                  the mail is fundamental to ensuring high-quality, reliable
                                  service. In addition, all Postal Service employees are
                                  responsible for preventing unauthorized individuals from
                                  entering restricted areas.

                                  Postal Inspection Service. The Chief Postal Inspector is the
                                  chief security officer for the Postal Service. The Postal
                                  Inspection Service is the security arm of the Postal Service
                                  and is responsible for protecting an estimated 800,000
                                  Postal Service employees and approximately 38,000
                                  facilities nationwide. The Postal Inspection Service also
                                  protects the mail, Postal Service assets, and millions of
                                  Postal Service customers; and provides training and
                                  guidance to responsible Postal Service security personnel.

                                  The Postal Inspection Service uses various tools and
                                  processes to assess the physical security of Postal Service
                                  employees and assets. The tools and processes include
                                  the Facility Security Survey (FSS), the Facility Risk Rating
                                  Model (FRRM), and Observation of Mail Condition (OMC).
                                  Our audit focused on the FSS.5

                                  Facility Security Survey. The objectives of the FSSs are to
                                  determine, through an on-site inspection and evaluation,
                                  current facility status and to recommend actions to improve
                                  security. The FSS, which security personnel must complete


4
 United States Postal Service Annual Report 2005.
5
 We plan to review the FRRM and the OMC program in a separate report on Postal Inspection Service security
operations and assessment tools.




                                                       1
Postal Service Security Controls and                                                             SA-AR-07-003
 Processes for the Pacific Area


                                  annually, is an in-depth checklist of 273 yes or no questions
                                  covering physical security areas, such as xxxxxxxxxxxxxxx,
                                  xxxxxxxxxxxxxxxxxxxxxxxxxx, xxxxxxxxxxxx,
                                  xxxxxxxxxxxxxxxxxxxxxxxxx. Responsible security officials
                                  in the Postal Inspection Service and the Postal Service,
                                  including postal inspectors and security control officers
                                  (SCO), complete the FSSs.6

                                  Security Personnel. To help manage physical security
                                  concerns, each area has an area security coordinator
                                  (ASC), each district has a district security control officer
                                  (DSCO), and each Postal Service facility has a SCO.

                                  •    The ASC in the Pacific Area (a full-time position)
                                       manages the establishment of the area and district
                                       security committees and oversees security programs
                                       and committees to ensure effectiveness and compliance
                                       with regulations. The ASC also manages the SCO
                                       program, provides guidance, and serves as the liaison
                                       between the area, district, and plants regarding
                                       SCO-related matters.

                                  •    DSCOs in the Pacific Area7 manage the overall district
                                       security program; serve as the liaison with the Postal
                                       Inspection Service; manage compliance with security
                                       policies and procedures, including FSSs; and provide
                                       security guidance to management. The DSCO is a
                                       designated full-time position.

                                  •    Facility SCOs serve as the focal point for addressing
                                       security concerns, help implement security policies, and
                                       coordinate with the Postal Inspection Service on security
                                       matters. The SCO is a collateral position and is usually
                                       the installation head or a designated manager or
                                       supervisor. If the installation head designates the SCO,
                                       the officer must acknowledge, in writing, an
                                       understanding of their collateral duties. The SCO is
                                       required to conduct an FSS annually.




6
 The FSS is a Postal Inspection Service tool. However, FSSs are conducted primarily by Postal Service SCOs.
7
 During the review, the DSCO position was vacant at the Bay Valley and Hawaii districts. The San Francisco DSCO
was scheduled to be announced.




                                                       2
Postal Service Security Controls and                                                      SA-AR-07-003
 Processes for the Pacific Area




    Objective, Scope, and       Our objective was to determine whether the Postal Service
    Methodology                 and Postal Inspection Service had sufficient controls and
                                processes to efficiently and effectively protect Postal
                                Service employees, customers, the mail, and critical assets
                                of the Postal Service.

                                To accomplish our objective, we interviewed Postal Service
                                and Postal Inspection Service officials (including officials
                                from the Office of Emergency Preparedness), the ASC for
                                the Pacific Area, DSCOs, SCOs, and installation heads.
                                We also interviewed inspectors-in-charge, team leaders,
                                inspectors, and program managers. Additionally, we
                                reviewed applicable policies and procedures related to
                                Postal Service and Postal Inspection Service physical
                                security, including Homeland Security Presidential
                                Directives 7 and 12.

                                We judgmentally sampled Postal Service facilities in the
                                Pacific Area to conduct audit fieldwork. Xxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx8 xxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxx. xxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxx, xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx,
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                xxxxxxxxxx. We also conducted fieldwork at Postal
                                Inspection Service Headquarters, the National Law
                                Enforcement Command Center, and the Los Angeles and
                                San Francisco Divisions.

                                We analyzed FSSs conducted at selected facilities for
                                calendar years 2005 and 2006 to determine whether
                                personnel completed them as required and whether
                                management appropriately addressed the deficiencies
                                identified. We also reviewed training records from the
                                National Training Database (NTD) to determine whether key
                                security personnel received sufficient physical security
                                training and guidance to efficiently and effectively protect
                                employees, customers, and Postal Service assets.
8

xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.




                                                   3
Postal Service Security Controls and                                                SA-AR-07-003
 Processes for the Pacific Area



                                We tested and validated computer-generated data from the
                                Facility Security Database (FSD) and the NTD system by
                                comparing data obtained from these databases with other
                                source documents, observing facility conditions, and
                                discussing the data with the appropriate Postal Service
                                officials. As a result, we consider the data sufficiently
                                reliable to support the opinions and conclusions in this
                                report.

                                We conducted this audit from September 2006 through May
                                2007 in accordance with generally accepted government
                                auditing standards and included such tests of internal
                                controls as we considered necessary under the
                                circumstances. We discussed our observations and
                                conclusions with management officials during the audit and
                                included their comments where appropriate.

 Prior Audit Coverage           The Postal Service Office of Inspector General’s audit
                                report, Audit of Postal Service Security Controls and
                                Processes for the Capital Metro Area (Report Number SA-
                                AR-07-002, dated March 30, 2007) concluded the Postal
                                Service and the Postal Inspection Service have
                                opportunities to improve security controls and processes to
                                effectively and efficiently protect Postal Service employees,
                                customers, the mail, and critical assets. Specifically, Postal
                                Service and Postal Inspection Service management could
                                strengthen controls to enhance employee awareness,
                                accountability, and overall collaboration. We made five
                                recommendations to improve security controls and
                                processes.

                                Management agreed with recommendations one through
                                four; however, they partially agreed with recommendation
                                five, to establish performance measures for security
                                personnel. Management stated they recognize the need for
                                performance evaluation, and have established standards to
                                address performance. However, their current pay for
                                performance system does not permit security performance
                                measures for all security personnel. Management’s
                                comments were responsive to recommendations one
                                through four. We thought management’s comments
                                regarding recommendation five were not responsive;
                                however, based on changes the Postal Inspection Service is
                                making to security operations, we did not pursue this




                                                 4
Postal Service Security Controls and                                                SA-AR-07-003
 Processes for the Pacific Area


                                recommendation through the formal resolution process.

                                The Government Accountability Office (GAO) report, U.S.
                                Postal Service: Physical Security Measures Have
                                Increased at Some Core Facilities, But Security Problems
                                Continue (Report Number GAO-05-48, dated November
                                2004) concluded the Postal Service had established the
                                physical security requirements — such as xxxxxxxxxxxxxx
                                and exterior lighting — necessary for core facilities to
                                address the threats of robberies, burglaries, theft, and
                                vandalism.

                                Additionally, implementation of security measures had
                                increased at some facilities, although security problems still
                                existed at some core facilities. However, incomplete and
                                inaccurate data precluded GAO from assessing changes in
                                the implementation of security measures at core facilities.
                                Specifically, the Postal Service’s FSD had a number of
                                problems, such as missing and incomplete data, duplicate
                                responses, and miscoded facilities. Further, GAO’s visits to
                                13 core facilities revealed a number of security problems,
                                including unaccounted for facility keys, unlocked doors,
                                deactivated alarms, and employees not wearing
                                identification badges.

                                GAO recommended and management agreed to develop a
                                plan, with objectives, timeframes, and resources needed to
                                correct and update the Postal Service’s FSD so they can
                                accurately assess the status of physical security at core
                                facilities, identify needed improvements, and assess the
                                progress made at facilities.




                                                 5
Postal Service Security Controls and                                                                     SA-AR-07-003
 Processes for the Pacific Area


                                              AUDIT RESULTS
    Opportunities Exist to             Pacific Area and Postal Inspection Service management have
    Improve Security                   opportunities to improve security controls and processes to
    Controls and                       effectively and efficiently protect employees, customers, the
    Processes                          mail, and critical assets. Specifically, management could
                                       strengthen controls over the FSS process to enhance
                                       employee awareness, accountability, and overall
                                       collaboration. During our audit we determined responsible
                                       security personnel did not always complete FSSs accurately
                                       or annually9 and did not take sufficient corrective actions to
                                       address deficiencies. This occurred because management
                                       did not establish sufficient internal controls and processes to
                                       assist security personnel with conducting FSSs. As a result,
                                       Pacific Area and Postal Inspection Service management did
                                       not effectively and efficiently assess their security operations
                                       and identify and mitigate security risks, exposing Postal
                                       Service employees, customers, the mail, and other critical
                                       assets to increased risk.

    Facility Security                  Responsible security personnel did not always conduct FSSs
    Surveys                            accurately or annually as required. This occurred because
                                       management did not have internal controls and processes to
                                       ensure responsible security personnel performed their duties
                                       as required. Specifically, management did not:

                                          •      Implement an appropriate internal review and approval
                                                 process to ensure responsible security personnel
                                                 complete FSSs accurately and timely.

                                          •      Establish consolidated standard operating procedures
                                                 and guidance to assist the ASCs, DSCOs, and SCOs
                                                 in performing their duties and responsibilities.

                                          •      Establish requirements for mandatory physical security
                                                 training for security personnel. For example, 66
                                                 percent (47 of 71)10 of responsible security personnel
                                                 we interviewed did not complete any SCO-related
                                                 training within the last 2 years and 57 percent (29 of



9
  The Postal Service’s Administrative Support Manual 13 (dated July 1999 and updated with Postal Bulletin revisions
through December 22, 2005) requires SCOs or designees to conduct annual FSSs.
10
   This figure represents the district security control officers, security control officers, and facility/plant managers
interviewed.




                                                           6
Postal Service Security Controls and                                                                            SA-AR-07-003
 Processes for the Pacific Area



                                                    51) of the SCOs and DSCOs interviewed stated they
                                                    needed additional training to effectively perform their
                                                    duties.

                                            •       Develop appropriate performance measures to assess
                                                    the achievement of security goals. For example, 85
                                                    percent (60 of 71)11 of the security personnel
                                                    interviewed did not have any security-related
                                                    performance measures.

                                         Accuracy of FSSs. Responsible security personnel at 31
                                         percent (15 of 49) of the facilities reviewed did not complete
                                         FSSs accurately, as required by the Administrative Support
                                         Manual (ASM). For example:

                                                •   A facility SCO incorrectly answered “yes” to a question
                                                    regarding perimeter fencing when there was no
                                                    perimeter fencing around the facility.

                                                •   A facility SCO did not respond to questions pertaining
                                                    to the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                                    because he did not know the appropriate answers and
                                                    he did not consult with the appropriate personnel.

                                                •   A facility SCO incorrectly answered “yes” to a question
                                                    regarding xxxxxxxxxxxx currently under a maintenance
                                                    contract. According to the Pacific Area ASC, xxxx
                                                    systems in the Pacific Area are not under a
                                                    maintenance contract because the contract costs
                                                    outweigh the benefits.

                                         We also noted that SCOs did not always respond to each
                                         question, which resulted in erroneous reporting of deficiencies.

                                         Timeliness of FSSs. At 47 percent (23 of 49) of the facilities
                                         reviewed, FSSs were not completed annually as required by
                                         the ASM. (See Appendix B for the status of FSSs at facilities
                                         reviewed). SCOs complete the FSSs and enter the results




11
 This figure represents the facility security controls officers, district security control officers, and facility/plant
managers interviewed.




                                                               7
Postal Service Security Controls and                                                               SA-AR-07-003
 Processes for the Pacific Area



                                      into the FSD. SCOs and Postal Service facility managers use
                                      FSS results to assess the security environment at Postal
                                      Service facilities.

                                      When FSSs are not conducted accurately and at least
                                      annually, as required, Postal Service employees, customers,
                                      the mail, and other critical assets are exposed to increased
                                      risk. Additionally, the Postal Service did not take advantage of
                                      the opportunity to mitigate risks that accurate and timely FSSs
                                      would identify.

                                      According to internal control standards set by GAO,12 internal
                                      control activities such as approvals, authorizations, and
                                      verifications help ensure that management’s directives are
                                      carried out and actions are taken to address risk. In addition,
                                      comprehensive standard operating procedures and guidance
                                      provide reasonable assurance that agency objectives are met.

                                      GAO standards also indicate that control activities, such as
                                      training, should be aimed at developing and retaining
                                      employees’ skill levels to meet organizational needs; and
                                      establishing appropriate performance measures and indicators
                                      help ensure that employees accomplish management’s
                                      directives and organizational objectives.

                                      In a prior audit of the Postal Service’s Security Controls and
                                      Processes for the Capital Metro Area, we provided the Chief
                                      Postal Inspector with the following two recommendations to
                                      address inaccurate and untimely FSSs:

                                           •   Establish and provide consolidated standard operating
                                               procedures and guidance to the Area Security
                                               Coordinator, District Security Control Officers, and
                                               Facility Security Control Officers to assist them in
                                               performing their duties and responsibilities consistently
                                               and in a timely manner.

                                           •   Establish requirements for mandatory security training,
                                               including periodic refresher training for responsible
                                               security personnel at the area, district and facility level.



12
     Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).




                                                         8
Postal Service Security Controls and                                              SA-AR-07-003
 Processes for the Pacific Area


                                  The Postal Inspection Service should implement these
                                  recommendations nationwide; therefore, we are not making
                                  any recommendations regarding standard operating
                                  procedures and mandatory training for security personnel in
                                  this report.

 Recommendation                   We recommend the Vice President, Pacific Area Operations,
                                  in consultation with the Inspector in Charge, Los Angeles
                                  Division, and Inspector in Charge, San Francisco Division:

                                  1. Require area- and district-level personnel to establish and
                                     implement appropriate internal controls, such as an
                                     internal review and approval process, to ensure that
                                     security personnel complete facility security surveys
                                     accurately and in a timely manner.

 Management’s                     Management generally agreed with the recommendation,
 Comments                         stating that recent changes in the Postal Inspection Service’s
                                  increased role and subsequent transition of physical security,
                                  emergency management, and aviation security will provide the
                                  necessary leadership to implement the recommendation.

                                  Management further stated FSSs were not correct for a variety
                                  of reasons and that interpretation of requirements and lack of
                                  training were partially responsible. Currently, security teams
                                  from the Los Angeles and San Francisco Divisions have plans
                                  to provide FSS and FSD training to security personnel. In
                                  follow-up correspondence, Postal Inspection Service officials
                                  stated they would establish annual training requirements for
                                  SCOs, inspectors, and area and district security personnel
                                  and update applicable policies by September 30, 2007.

 Evaluation of                    Management’s comment and planned corrective actions are
 Management’s                     partially responsive. We agree the recent consolidation of all
 Comments                         security matters under the Postal Inspection Service, and
                                  management’s plans to establish training requirements should
                                  help to ensure FSSs are completed accurately. However, we
                                  believe management should also implement additional internal
                                  controls, such as, an internal review and approval process to
                                  ensure security personnel complete the FSSs timely.

                                  We do not plan to pursue this recommendation through the
                                  formal audit resolution process. However, we plan to conduct
                                  a follow-up review after organizational changes within the
                                  security program are completed.



                                                 9
Postal Service Security Controls and                                                SA-AR-07-003
 Processes for the Pacific Area




 Recommendation                   2. Develop appropriate performance measures for physical
                                     security to assess the achievement of security goals and
                                     incorporate them into performance plans for area-, district-,
                                     and field-level security personnel.

 Management’s                     Management agreed with the recommendation and stated the
 Comments                         National Performance Assessment Core Goal program, a
                                  national level program, used combined Area Security
                                  Assessment Program (ASAP) scores to assess area
                                  performance. Management further stated including ASAP
                                  reviews in discussions provides the opportunity to give
                                  security performance feedback, focus on improvement needs,
                                  and highlight cluster success.

                                  In follow-up correspondence, Postal Inspection Service
                                  officials agreed to establish performance measures for district
                                  and field-level security personnel in FY 2008. They further
                                  stated that although headquarters would establish national
                                  goals, field and district sites may have unique areas that could
                                  dictate additional measures to compliment the national
                                  security goals.

 Evaluation of                    Management’s comments and planned corrective actions are
 Management’s                     responsive to the recommendation and should correct the
 Comments                         issue identified in the finding.

 Corrective Action on             Management did not always take sufficient corrective action to
 Security Deficiencies            resolve deficiencies identified in FSSs. This occurred because
 and Follow-up Reviews            management did not establish formal, written procedures,
                                  including timeframes and follow-up reviews, to address
                                  deficiencies. Specifically, we reviewed FSSs at 49 facilities in
                                  the Pacific Area and determined SCOs at 37 percent (18 of
                                  49) of the facilities reviewed, did not take sufficient corrective
                                  actions to resolve deficiencies. As a result, Postal Service
                                  employees and assets were exposed to increased risk.

                                  For example, at one facility, the FSS noted that management
                                  did not xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                  xxxxxxxxxxxxxxxxxxxxxxxx. According to the SCO,
                                  management has not addressed this deficiency. At another
                                  facility, the SCO did not appropriately address windows that
                                  did not have bars or metal screening because he and the
                                  facility head stated the bars could create a fire safety hazard.




                                                 10
Postal Service Security Controls and                                               SA-AR-07-003
 Processes for the Pacific Area


                                  However, they did not follow-up with appropriate officials to
                                  determine whether the bars would actually create a safety
                                  issue or if there were alternative measures they could take.

                                  According to GAO internal control standards, the monitoring of
                                  internal controls should include policies and procedures to
                                  ensure management resolves findings from reviews.
                                  Managers are to promptly evaluate findings and deficiencies;
                                  determine the proper actions; and complete, within established
                                  timeframes, all actions needed to correct the matters brought
                                  to their attention. The resolution process begins when the
                                  results of reviews are reported to management, and is
                                  complete only after management has corrected the
                                  deficiencies, made improvements, or demonstrated that the
                                  findings and recommendations do not warrant management
                                  action.

                                  After FSSs are completed, facility managers and SCOs should
                                  take corrective actions within an established timeframe.
                                  Additionally, formal follow-up should be required to ensure
                                  management addresses deficiencies.

                                  In our audit of the Postal Service Security Controls and
                                  Processes for the Capital Metro Area, we recommended the
                                  Chief Postal Inspector establish and implement a formal
                                  process for conducting FSSs, including timeframes for
                                  addressing deficiencies and conducting follow-up reviews.
                                  The Postal Inspection Service should implement this
                                  recommendation nationwide; therefore, we are not making any
                                  recommendations regarding a formal process for conducting
                                  FSSs in this report.




                                                11
Postal Service Security Controls and                       SA-AR-07-003
 Processes for the Pacific Area


                     APPENDIX A. PACIFIC AREA FACILITIES




                                       Redacted




                                         12
Postal Service Security Controls and        SA-AR-07-003
 Processes for the Pacific Area




                                       13
Postal Service Security Controls and                                                  SA-AR-07-003
 Processes for the Pacific Area


        APPENDIX B. STATUS OF FACILITY SECURITY SURVEYS
                                                                                FSS
                                                                             Completed
                    District                    Facility Name                 Annually

           1   Bay Valley          Xxxxxxxxxxxxxxxxxxxx                         No
           2   Bay Valley          Xxxxxxxxxxxxxx                               Yes
           3   Bay Valley          Xxxxxxxxxxxx                                 No
           4   Bay Valley          Xxxxxxxxxxxxxxxxxxxxx                        No
           5   Bay Valley          Xxxxxxxxxxxxx                                Yes
           6   Bay Valley          Xxxxxxxxxxxxxxxxx                            Yes

           7   Los Angeles         xxxxxxxxxxxxxxxxxxxxx                        Yes
           8   Los Angeles         Xxxxxxxxxxxxxxxxxxxxxxxxx                    No
           9   Los Angeles         Xxxxxxxxxxxxxxxxxxxxxxxxxxxx                 Yes
          10   Los Angeles         Xxxxxxxxxxxxxxxx                             Yes
          11   Los Angeles         Xxxxxxxxxxxxxxxxxx                           No

          12   Sacramento          Xxxxxxxxxxxxxxxx                             No
          13   Sacramento          Xxxxxxxxxxxxxxxxxxxx                         No
          14   Sacramento          Xxxxxxxxxxxxxxxxxxxxxx                       No
          15   Sacramento          Xxxxxxxxxxxxxxx                              Yes
          16   Sacramento          Xxxxxxxxxxxxxx                               Yes
          17   Sacramento          Xxxxxxxxxxxxxxxxxxxxxx                       No
          18   Sacramento          Xxxxxxxxxxxxxxxxxxxx                         No
          19   Sacramento          Xxxxxxxxxxxxx                                No
          20   Sacramento          Xxxxxxxxxxxxxxxxxxxxx                        Yes

          21   San Diego           Xxxxxxxxxxxxxxxxxxxx                         No
          22   San Diego           Xxxxxxxxxxxxxxxxxx                           No
          23   San Diego           Xxxxxxxxxxxxxxxxxxx                          Yes
          24   San Diego           Xxxxxxxxxxxxxxxxxxxxxxxxxx                   No

          25   San Francisco       Xxxxxxxxxxxxxxxxxxxx                        Yes
          26   San Francisco       Xxxxxxxxxxxxxxxx                            Yes
          27   San Francisco       Xxxxxxxxxxxxxxxxxxxxxx                      No
          28   San Francisco       Xxxxxxxxxxxxx                               Yes
          29   San Francisco       Xxxxxxxxxxxxxxxxxxxxxx                      Yes
          30   San Francisco       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxx               Yes
          31   San Francisco       Xxxxxxxxxxxxxxxxxxxxxxxx                    Yes
          32   San Francisco       Xxxxxxxxxxxxxxxxxxxxxxxxx                   Yes
          33   San Francisco       Xxxxxxxxxxxxxxxxxxxxx                       Yes
          34   San Francisco       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx           Yes
          35   San Francisco       Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx     Yes

          36   Santa Ana           Xxxxxxxxxxxxxxxxxxxxxx                       Yes
          37   Santa Ana           Xxxxxxxxxxxxxxx                              Yes
          38   Santa Ana           Xxxxxxxxxxxxxxxxxxx                          No
          39   Santa Ana           Xxxxxxxxxxxxxxxxxx                           No
          40   Santa Ana           Xxxxxxxxxxxxxxx                              Yes
          41   Santa Ana           Xxxxxxxxxxxxxxxxxxxxx                        No




                                                 14
Postal Service Security Controls and                                     SA-AR-07-003
 Processes for the Pacific Area


                                                                   FSS
                                                                Completed
                   District                     Facility Name    Annually
          42   Santa Ana           Xxxxxxxxxxxxxx                   No
          43   Santa Ana           Xxxxxxxxxxxxxxxxxxxxxxxxxx       No

          44   Van Nuys            Xxxxxxxxxxxxxxxxxx              Yes
          45   Van Nuys            Xxxxxxxxxxxxxxxxxxxxxxxx        No
          46   Van Nuys            Xxxxxxxxxxx                     No
          47   Van Nuys            Xxxxxxxxxxxxx                   Yes
          48   Van Nuys            Xxxxxxxxxxxxxxxxxx              Yes
          49   Van Nuys            Xxxxxxxxxxxxxxxxxxxx            No



        Legend

        P&DC Processing and Distribution Center
        P&DF Processing and Distribution Facility
        ISC International Service Center
        VMF Vehicle Maintenance Facility




                                                 15
Postal Service Security Controls and                   SA-AR-07-003
 Processes for the Pacific Area


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                       16
Postal Service Security Controls and        SA-AR-07-003
 Processes for the Pacific Area




                                       17
